No. 19-1373
IN THE SUPREME COURT OF THE UNITED STATES

Ming Wei,
Petitioner.
v.
Pennsylvania State Civil Service Commission
(Pennsylvania Department of Health)
Respondent.

On Petition for a Writ of Certiorari
to the' Commonwealth Court ofTennsylvanth

Petition for a Writ of Certiorari

Ming Wei, Pro Se
3910 Silver Brook Dr
Mechanicsburg, PA 17050 • Phone: (717)732-2040
Email: mingweiebct@hotmail.com

RECEIVED
JUN 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S .

QUESTION PRESENTED
Wei is a naturalized Asian American Epidemiologist who was dismissed by the Pennsylvania
Department of Health ("PADOH"). His duty was to
check for data errors to maintain the data integrity
and keep a vigil against the Epidemic. PADOH
claimed that it dismissed Wei because he failed to
complete converting HIV/AIDS HARS data that it
assigned him solely. Wei claimed that PADOH never
assigned him the task, never gave him an opportunity
to respond, and it terminated him for blocking his
ongoing search for more data errors after the others
converted HARS data. PADOH never gave Wei the
opportunity to respond before termination, it refused
to provide and present the key documents. The
Commission disallowed Wei from having an
interpreter in a civil service hearing, and credited all
PADOH stated but discredited Wei. The state court of
appeals .affirmed. Wei filed a case in a federal court
and uncovered the contemporaneous records later,
PADOH admitted it never assigned Wei to convert
HARS data in the federal court. When Wei used the
records to reopen this case, PADOH insisted that it
assigned Wei to convert the HARS data solely. The
state court of appeals stated that it didn't believe that
PADOH never assigned wei to convert HARS data
and it couldn't access the federal courts' records. The
questions presented are as follows:
Whether Wei's constitutional rights and due
process rights were violated in the state proceedings
Whether the court of appeals erred in that
PADOH didn't commit the fraud.
Whether the court of appeals erred in that Wei
could use PADOH's records in the initial hearing
ii

PARTIES TO THE PROCEEDING
Petitioner is Ming Wei.
Respondent is the Pennsylvania Department of
Health("PADOH"), an agency of the Commonwealth
of Pennsylvania. The administrative hearing was
held under the Pennsylvania State Civil Service
Commission ("Commission")
RELATED PROCEEDINGS
United States District Court (M.D. Pa.):

Wei v. Commonwealth of Pennsylvania et al
No. 11-cv-00688 (Final Judgement entered on March
28, 2019)
United States Court of Appeals (3d Cir.):

Wei v. Commonwealth of Pennsylvania et a/
No. 19-1705 (Denying rehearing on March 31, 2020)
The major reason to terminate Wei's federal case was the issue
preclusion, Wei will apply to appeal the case 19-1715 (3rd
Circuit Court in which a majority denied Wei's petition for
rehearing on March 31, 2020 later. Since Defendants didn't
release key documents until the federal case, the majority of
the records cited here are from Wei's federal case but have
been filed to the state tribunals for reopening.

iii

TABLE OF CONTENTS
TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI
1
OPINIONS BELOW
1
JURISDICTION
1
STATUTORY AND REGULATORY PROVISIONS
INVOLVEED
2
STATEMENT OF THE CASE
2
REASONS FOR GRANTING THE PETITION
18
CONCLUSION
39
APPENDIX
Appendix A. Pennsylvania Supreme Court order
(Jan. 22, 2020)
... la
Appendix B. Commonwealth Court's Order (June
21, 2019)
2a
Appendix C. Commonwealth Court Opinion (May
9, 2019)
3a
Appendix D. PA State Civil Service Commission
Order (Sept. 20, 2018)
18a
Appendix E. Initial Commonwealth Court (Nov
25, 2008)
20a
Appendix G. The response of PADOH' to Wei's
Application for rehearing
35a
Appendix F. Wei's Application for Rehearing
36a
Appendix H. Reproduced Records
45a

iv

TABLE OF AUTHORITIES
Cases

Page

Cleveland Board of Education v. Loudermill,
470 U.S. 532 (1985)
19, 20,22,23,25,37
Commissioner of Probation V. Adams,
65 Mass. App. Ct. 725, 737 (2006)
34
Fritz v. Commonwealth, Dept. of Transportation,
468 A,2d 538 (Pa.1983)
28
Hazel-Atlas Glass Co. v. Hartford -Empire a.,
322 U.S. 238, 246 (1944)
29
In Brady v. Maryland,
373 U.S. 83, 87 (1963)
33
In re Baker's Appeal,
409 Pa. 143, 185 A.2d 521 (1962)
25
Lewis v. Civil Service Commission,
518 Pa. 170, 175, 542 A.2d 519, 522 (1988)
20
Long v. Commonwealth, Pennsylvania
Liquor Control Board,
112 Pa. Commw. 572, 535 A.2d 1233 (1988)
25
Matter of Neitlich,
413 Mass. 416, 423 (1992)
34
Shoemaker v. State Employes' Retirement Board,
688 A.2d 751, 753 (Pa. Cmwlth. 1997)
28
Stone v. Federal Deposit Insurance Corporation,
179 F.3d 1368 (Fed. Cir.1999)
23
Wei v. State Civil Service Commission,
961 A.2d 254 (Pa. Commw. Ct. 2008) ....13-18,20,
22, 26,30

Wei v. State Civil Service Commission
No. 263 C.D. 2015). (Pa. Cmwlth, 2016)
14
Wei v. State Civil Service Commission.
No. 1902 C.D. 2016 (Pa. Cmwlth, 2017).. 14,18,20
25, 27 33.
Wei v. State Civil Service Commission,
No 1321 CD 2018 (Pa. Cmwlth, 2019) 1,14,18,27

Constitution & Statute
28 U.S.C. § 1257
1
Pennsylvania § 81.4. Rules3.3
30
Pennsylvania Section 105.17 of the Rules of
the Civil Service Commission)
27
Pennsylvania Section 807 of the Civil Service
Act 71 P.S. § 741.807
25
US. Const. Amend. I
2, 21
U.S. Const. amend. XIV
2, 19,20,26 33
Whistleblower Law
2,23

vi

PETITION FOR A WRIT OF CERTIORARI
Petitioner Ming Wei ("Wei") respectfully petitions for a writ of certiorari to review the judgment
of the Commonwealth Court of Pennsylvania
("Commonwealth Court").
OPINIONS BELOW
The judgment for which the review is sought is
the decision of the Commonwealth Court for Wei v.
State Civil Service Commission, No. 1321 CD 2018
(Pa. Cmwlth, 2019) ( Wei IV) (Appendix ("App.") C)
because the Supreme Court of Pennsylvania
Denied Wei's Petition for Allowance of Appeal on
Jan 22, 2020 (App. A).
Wei sought this Court to review the case also
because the Commonwealth Court stated Wei's key
evidence to reopen was from the records of his
federal case, but it couldn't access the federal
courts' records and PADOH never admitted the
evidence before the state tribunals. Therefore, this
Court should review this case because only this
Court can access the records of both the state and
federal cases.
JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1257 to review the final judgment of
the Commonwealth Court.
1

STATUTORY AND REGULATORY PROVISIONS
INVOLVEED
The first amendment provides "Congress shall
make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or
the right of the people peaceably to assemble, and
to petition the Government for a redress of
grievances".
The fourteenth amendment provides "All
persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they
reside. No State shall make or enforce any law
which shall abridge the privileges or immunities
of citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws".
STATEMENT OF THE CASE
I. Factual History of the Case
This case involves Petitioner's claim that
Respondent PADOH violated the Whistleblower
law, due process, and Pennsylvania civil service act
and illegally dismissed Wei with a fake cause.
The Commonwealth of Pennsylvania required
the agencies to document their business records,
2

and preserve the records for the anticipating
litigation(http://www.oa.pa. gov/Policies/Pages/m an
ual. aspx M210.1-M210.9).
PADOH held the employee's duties must be
written and updated in the position description
(App. 47a-49a, 76a). Wei's supervisor Veronica
Urdaneta ("Urdaneta") testified and wrote that she
tasked Wei in writing and with follow-up date (App.
47a, AX5309.
PADOH has collected AIDS cases into HIV/AIDS Reporting System ("HARS") database since
1980s.
With a median of 10 years from the initial HIV
infection to progress into the AIDS stage, Pennsylvania started a name-based HIV reporting on Oct.
18, 20022 to collect HIV cases at early (non-AIDS)
stage (App. 148a).
Wei, a naturalized Asian American with a
pulmonary lobectomy (now at age 62), was the data
manager of the HIV team in PADOH since Feb.
2001.
The major task of the whole HIV team which
had 15 positions in 2007 and a part of Bureau of
Information Technology ("BIT') were cleaning and
converting HIV reports, deduplicating them into
the potential cases (pre-HARS cases) (App. 50a).

In addition to the documents in the appendixes, Wei also cited some
documents with prefix "AX" or "AR" for those filed to the Circuit
Court and "DCD" for those filed to the District Court.
Philadelphia didn't join the action but started collecting the
non-name reports earlier

2

3

Then 16 field offices ("LMRO", App. 50a)
investigated those potential cases, and entered the
confirmed cases.
Based on PADOH's writing, Wei's job was
receiving the Deloitte (BIT's contractor)'s extracts
of the confirmed cases, reviewing their accuracy
and completeness in PA-NEDSS (App. 51a, 142a),
"his job is to analyze the data and pointout errors
he finds", how to fix them wasn't his work (App.
54a-55a). Wei also instructed to inform BIT
(Deloitte) when he found the errors (AX503, DCD
95-2, pp9- 10). PADOH claimed that Wei must be
punished strongly if he did the unassigned task.
PADOH also assigned Wei in charge of the
security within the HIV secured area (AX306).
a. Wei found the incompleteness in converting
HARS data
PADOH in 2002 initially declared its BIT
(and BIT's PA-NEDSS team with 42 IT staffers and
$8-10 million budget annually (App. 59a)) to
convert HIV lab reports. However, it assigned HIV
team doing the work as a temporary solution (AX515-6).
The HARS data were the last format (AR5)
of HIV/AIDS cases because the Federal and all
states used HARS as the sole tool to communicate
and count HIV/AIDS cases.
In April 2004, PADOH decided to use BIT's
PA-NEDSS to replace HARS as the active database
for Pennsylvania HIV/AIDS cases (AX220), In the
initial Charter (App.60a), BIT should convert all
HIV lab reports then using new BIT format for HIV
4

reports since Feb 2005 (App. 60), it also converted
the all HARS cases into PA-NEDSS by July 1,
2005, and then HARS remained as a passive
database only (App. 60a,146a). However, BIT
didn't complete either tasks on time.
Since 2006, Wei identified many inaccuracies
and incompleteness after the others converted
HARS data, the ongoing fixing saved Pennsylvania
$ multi-million annually. For example, his finding
led to correct HIV-onset date errors in 38,000 cases
(80% of total HARS cases) (App. 63a).
However, in 2006, Urdaneta revoked Wei's
right accessing PA-NEDSS (App. 52a), it impended
Wei's duty of checking the data errors in PANEDSS but the revocation was partially reversed
later.
PADOH claimed: it ordered several other
staffers to convert the Philadelphia HARS data,
they converted 362 records only in 4 months, the
task was incomplete due to the heavy workload
(App. 64a).
Wei identified about 10% of HARS converted
errors in some variables among these cases (App.
65a).
In 2006 - 2007, Wei found many errors in the
HARS converted data, for example, one was in race
field (App. 66a). After PADOH dismissed Wei, it
stated that it didn't fix the error yet (App. 67a).
Wei worked hard to maintain the data
integrity. Urdaneta and Godwin Obiri ("Obiri" was
Wei's supervisor from Aug 2005 to Nov 2006 and
Urdaneta's subordinate) have admitted that Wei
5

correctly identified the data errors (App. 68a69a).
b. Wei identified the incompleteness of
converting HIV reports.
PADOH wrote under oath: on Oct. 28, 2005,
it assigned Wei to spend 2 months exclusively to
help cleaning HA.RS data for conversion; while
other staffers to unify (convert) 2005 reports until
"By November 22, 2005, it became apparent to
PADOH that the conversion of the backlogged HIV
lab data was interfering with the conversion of
HA.RS data" (DCD,70-1,p7). They restarted with a
plan that BIT develops a format first so that the
HIV team converts raw reports directly into the
format (App. 62a, 72a).
Once Wei completed cleaning, he returned to
his major task of checking for the completeness and
accuracy of the cases weekly; PADOH instructed
Wei also to review the completeness of HIV reports
in PA-NEDSS (App. 51a). Wei wrote to Obiri that
he didn't see any backlog reports in PA-NEDSS yet
on Dec 22, 2005 (App. 75a).
In May 2006, Wei indicated the incomeplete
-ness in processing both 2005 and 2006 reports, he
asked BIT's lab report manager Robert Giallo
("Giallo") and cc Obiri about their progress (App.
78a).
Giallo responded that they fell behind in
processing them, but he had discussed the issue
with Obiri, and was drafting an updated Charter
for the 2005 reports but "the project was bigger
6

than originally anticipated, it required a complete
PA-NEDSS team effort for the project" (App. 78a).
When Wei re-indicated the incompleteness of
processing 2005 lab reports in November (App.
76a), Giallo wrote to Obiri that they would present
the updated Charter in the upcoming meeting to
respond Wei's question when and how they would
complete 2005 reports.
Then PADOH held a Dec. 2006 BIT meeting,
Giallo stated they didn't complete the task because
it was too big. The meeting accepted the Charter
but wanted: (1) HIV team did an estimate based on
an upcoming BIT draft format, then (2) the group
has next meeting to decide the formal format for
the conversion (App. 91a)
About 600,000 raw reports yearly were sent
to PADOH from 2003 to 2005 (App. 148a). The HIV
team processed up to 480,000 records annually
(App. 147a), while the PA-NEDSS team processed
up to 330,000 reports annually (App. 58a). New
Jersey needed 6 full-time employees ("FTE") to
process 60,000 HIV reports annually (App. 98a).
Therefore, the meeting decided the work would be
completed in 2008.
BIT and others circulated the draft format
since Jan 25 2007 (DCD 300-2, p26). Although
PADOH has claimed others were in charge of
cleaning, no one cleaned the reports for the format.
However, to do an estimate, a part of reports needs
to be cleaned, converted, and deduplicated.
Wei worked days and nights, did all steps
and got 158 potential cases (about 8% total cases)
for estimate. Then Giallo did a test and updated
7

email about the meeting to Wei was sent after the
meeting (AX279). Wei reported the discrimination
and defamation to the PADOH's Equal Employment Office ("EEO"). PADOH has admitted that
the other staffers including Urdaneta missed some
meetings. It has admitted no other staffer was
disciplined for missing a meeting (AX536).
Wei also reported that PADOH violated its
compensatory time policy (AX262) and denied his
compensatory hours for his overtime work while
others got the compensatory time (DCD 358-1).
EEO contacted his supervisor then told Wei that
Wei mustn't work for the PA government after 5
PM, but PADOH wouldn't compensate him for his
previous extra hours.
Urdaneta on April 9, 2007 suddenly ordered
Wei to complete converting all 2005 lab reports into
the draft format (AX297-8) though she in March
2007 had defined the draft format as being for
estimation only but useless for conversion (App.
91a).
PADOH has expended HIV team from 8
staffers in 2004 to 15 positions in 2007 (DCD 207-5)
while the data management reduced to Wei lonely
from 2.75 positions when PADOH defined the data
management as having "severe staffing shortfalls"
(App. 101).
PADOH required that the cleanup must be
done before converting (App.74a, AX246:2).
However, when Wei asked PADOH to arrange the
others doing their jobs and give him an assistant
(AX298), it rejected his requests (DCD 312, ¶131)
but ordered him to "set aside 2 hours" daily (App.
9

107a) from his routine to converting the lab data at
a May 2007 Pre-discipline conference ("PDC"). It
banned Wei to email the big file (App. 109a) and
required him to send the note to report his progress
(App. 106a), Wei did so.
PADOH in the updated Charter requires
that BIT develop the format first, and then the HIV
team converts "all raw files" of HIV lab reports into
the format (App. 72a, #3.2)". Since the formal
format was not available yet, converting the lab
data into the draft format was useless.
So Wei did the cleaning work first and then
converted. Wei worked extremely hard and got sick
and had a hearing problem (App. 110a).
Urdaneta's supervisor Stephen Ostroff
("Ostroff') instructed Wei that he was no longer a
part of the solution for the backlog lab data on July
2, 2007 (App. 111a). He should focus on his own job
of checking for data errors.
PADOH documented that Wei completed
400,000 reports by July 3, 2007 (App. 112a). Wei
also reported his processing of 550,000 reports in
an August 27, 2007 email to PADOH (App. 119a).
c. Other Events
Wei found the annually collected HIV (nonAIDS) cases since 2006 substantially decreased
after excluding 1,600 pre•HARS cases before 2005
(App. 126a) and Philadelphia cases.
According to the other states' experiences, the
cumulative HIV (non-AIDS-stage) cases should
10

dramatically increase in the first 5 years of HIV
reporting. Although the 2005 reports hadn't been
processed and PADOH had cumulatively collected
6,237 cases by Nov. 2005 (App. 124a), the cases
were 6,218 only by Dec. 2007 (App. 128a)3 .
44. On Aug 13, 2007, Wei reported that BIT and
others processed about 60,000 raw HIV lab reports
between Jan 2006 and Aug 10, 2007. He was
concerned that 50% of the collected living cases had
no HIV reports during this period, though the
AIDS cases were requested to test for virus load
and T lymphocyte CD4 quarterly (App. 129a).
PADOH never responded.
45. While PADOH didn't fix the birthplace errors
that Wei identified in March, Wei indicated the
other birthplace errors on July 30 (DCD 300-1,
p759) and Aug 22 (AX286). PADOH never responded but separated Wei from the data permanently
2 days later.
46. PADOH held an Aug 24, 2007 PDC. PADOH
had not informed Wei that it was dismissing Wei in
the PDC (App. 131a-133a).
47. Instead, after Urdaneta [Dr. U] accused Wei
of failing to complete the task assigned in a Dec.
2006 BIT meeting (App. 131a) and Wei disputed,
the HR official Tiffany Burnhauser ("Burnhauser")
orally suspended Wei for investigation.
48. Burnhauser instructed Wei to send an email
about his performance on or before Aug. 29, 2007
(App. 133a). She stated that Wei should leave his
3 about 3.5% HIV (non-AIDS) cases advanced into AIDS stage
annually in Pennsylvania (DCD 207-5, pp9-10) and about 2%
other attritions.
11

personal belongings in his office because this was
for an investigation only but not termination. In
2004, PADOH launched an investigation against
Wei but ended with an apology letter to him (App.
134a).
Wei reported his work in both handling the
data management and processing 550,000 reports
in an Aug. 27, 2007 email to Burnhauser and her
supervisor HR Director Kim Strizzi (App. 119a).
Before mailing the termination letter on
Sept 4, 2007, PADOH only communicated with Wei
one time: it mailed him a confirmed suspension
letter but the letter didn't list any facts (App. 144a).
PADOH wrote a vague cause of the backlog data in
the termination letter (DCD 300-2, pp4-5), but it
clarified the removal cause was failing to convert
the backlog HARS data (App. 130a) assigned at
Dec. 2006 BIT meeting later.
II. Procedural History of This Case
Wei appealed PADOH's dismissed decision to
the Commission; he requested to allow an
interpreter based on Pennsylvania law (App. 135a),
but the Commission denied his request (App.
136a).
The Commonwealth has documented "Wei is
Asian and his English is very broken" (AX250). In
the deposition of Wei's federal case, the District
Court required Wei to hire an interpreter to deposit
the Defendants PADOH et al.
Wei subpoenaed key PADOH's documents for
the hearing. PADOH filed a quash motion to
12

refused to release the documents (AX419). When
Wei asked the issue during the hearing, the
Commission stated that it considered later but
never ruled the issue.
54. PADOH refused to exchange evidence. It
didn't start returning Wei's belongings in his office
that contained emails and documents until June
2009 but never returned his notebooks (AX251-4).
Many documents that Wei filed to reopen wasn't
available at the 2007 Commission hearing.
PADOH insists "the uncompleting assignment from Dr. Urdaneta and which resulted in his
discharge was not given to him until December of
2006 [BIT meeting]" (DCD 343-1, p3). "In December 2006, Veronica Urdaneta, Wei's supervisor,
assigned Wei the task of converting the HARS
HIV/AIDS data files" "The task was solely Wei's
responsibility" Wei v. State Civil Serv. Comm n,
961 A.2d 254 (Pa. Commw. Ct. 2008) ( Wei I, (App.
E).
"Wei was terminated for not completing the
HARS HIV/AIDS assignment by July 31, 2007.
While the Department maintains that Wei was
given ample resources and time within which to
complete the assignment" but "Wei claims that it
was not his responsibility to convert the 2005
HARS HIV/AIDS data files" Wei I.
Although PADOH bears the burden of proof
and the Pennsylvania government has required to
preserve the business records in anticipation of
litigation, PADOH supported its removal cause
based on the oral testimonies with the "facts" never
talked to Wei even never exist in its records. Both
13

sides disagreed on almost everything, but the
Commission credited PADOH only.
After hearing, Wei provided the additional
documents and applied for reconsideration, PADOH claimed these documents were unverified,
the Commission struck his documents (App. 150a)
and denied his application (App. 44a).
Wei appealed to the Commonwealth Court.
PADOH insisted it assigned Wei converting HARS
data solely but the conversion was incomplete. The
Commonwealth Court affirmed Wei I.
Under the tremendous defamation, Wei was
severely ill. PADOH Ms continued to campaign
that Wei was insubordinate in failing to convert
HARS data. Once he got better, he approached the
EEOC then the federal court to try getting
PADOH's contemporaneous records and he got
them.
From 2014 to 2016 to 2018, Wei filed three
motions to reopen the cases according to the
after-discovered evidences that PADOH released
and verified in the federal court Wei v. State Civil
Service Commission (Pa. Cmwlth. No. 263 C.D.
2015 (Wei 11), and Wei v. State Civil Service
Commission. No. 1902 C.D. 2016 ( Wei I11), and Wei
In the state case, PADOH has insisted that it
assigned Wei to convert HARS data solely (App.
130a). it provided sufficient time to Wei to convert
HARS data but the conversion was unfinished yet
Wei I In the federal case, However, it admitted
BIT and other staffers rather than Wei were
assigned to convert HARS data; it never assigned
14

Wei to convert HARS data (App. 151). Indeed, it
actually assigned Wei to check the errors after the
others converted HARS data (App. 51a, 54a -55a).
In the state case, PADOH claimed "Wei was
charged with collecting and reporting HIV/AIDS
data accurately" Wei I. In the federal case, its
documents show Wei was charged with reviewing
the completeness and accuracy of the collected data
while others were charged with collecting and
reporting HIV/AIDS data accurately (App. 51a,
54a-55a).
In the state case, PADOH stated that Wei
didn't send the email about his performance by Aug
29, 2007, then it decided to dismiss him (App.
137a:16-25). In the federal case, however, its
documents show that it received Wei's email on
Aug 27, 2007 in which Wei updated his processed
reports from 420,000 (App. 112a) to 550,000 (App.
119a) and routine data management.
PADOH has admitted the others started to
clean and convert HARS data since 2004, the
converting 44,000 HARS records wasn't Wei's
business. It documented that the HIV team
processed up to 480,000 HIV reports yearly (App.
147a); PA-NEDSS team processed up to 330,000
reports yearly (App. 58a).
In the state case, PADOH claimed Wei stated
that "he was refusing to do it" in May 16, 2007
PDC. Wei I. In the federal case, PADOH
documented Wei stated that "I will try" in the PDC
minute (App. 107a).
In the state case, PADOH claimed "Urdaneta
transferred some of Wei's job responsibilities to
15

other staff members" Wei I. In the federal case, no
her email to transfer Wei's duty to others was
found. Instead, she emailed to assign more tasks to
Wei (AX343-9) and Wei completed all of them. For
example, Wei trained Obiri three times until Aug.
2007 (DCD 207-4, pp63-67).
68. In the state case, PADOH claimed "the
employer could not continue to wait for the
claimant [Wei] to make excuse and to stall the
progress of the project", so it terminated Wei (App.
138a). In the federal case, however, PADOH has
admitted that it didn't complete its priority of 2005
HIV reports by Sept. 2010 (App. 139a); it had no
record that the work was completed. PADOH also
claimed that it destroyed all hardware of 2007
computers (App. 150a).
69. In the state case, Urdaneta testified she
shared a story in July 3, 2007 PDC: After her
receiving Wei's July 2, 2007 5:23 email, she walked
[250 feet and open two secured doors] to Wei's office,
"he opened the computer and he showed me just
different files and different formats that he had",
but couldn't show a sample of 2007 draft format
(DCD 3001, pp506-11). Then they asked him
during the PDC to show the converted data, and he
wasn't able to do that (DCD 300-1, pp509). In the
federal case, neither PADOH's PDC minutes nor
any records documented Urdaneta 's visiting story,
her order, or PADOH's order. Instead, PADOH
documented that Wei had completed 400,000
records (App. 112a). It has admitted no such story
or order in the PDC (App. 141a). In one testimony,
Urdaneta admitted "I never saw the document
16

[Wei's email]" (App. 140a). In another testimony,
she admitted that she had no evidence to present in
Wei's office after 5:25 PM in the day (DCD 208-1,
p34).
70. In the state case, PADOH claimed when Wei
wanted Giallo testing 158 potential cases, "In a
response, Giallo informed Wei that he was getting
too deep into the process and reminded him that
the layout would probably change. Urdaneta also
testified that she never instructed Wei to test the
draft layout..." to portray Wei's insubordination
Wei I. In the federal case, However, PADOH in its
updated charter required to test a small sample
first (App. 74a, para. 7), Indeed, Giallo updated
draft guidelines ("format") to ask for "more detail"
(also cc to Urdaneta (App. 96a), no error even for a
comma "[The message constructions rules] must be
carefully adhered to in order for messages to be
interpreted correctly" (App. 156). However, he
changed the tone after Wei redid "more detail" as
he suggested.
In the state case, PADOH claims that e-mails
show that Wei was insubordinate in refusing for six
months to accept the duty of converting HARS data.
In the federal case, neither email nor record show
Wei refused to do so.
In the state case, PADOH claimed that Wei
could bring the data out of HIV secured area freely.
In the federal case, based on Pennsylvania law and
CDC HIV guidelines, HIV policy and requests must
be in writing, and the papers with identities
couldn't be brought out of the HIV secured area
(App. 153a -154a).
17

However, PADOH has insisted its initial
false story such as it assigned Wei converting
HARS data solely in the state tribunals. Wei I to
Wei IV (App. 130a).
The Commonwealth Court affirmed in Wei I
to Wei IV. In Wei HI the Commonwealth Court
chose to believe PADOH indeed assigned Wei to
convert HARS data by citing a PADOH's 2017
brief "Because it is a well-established fact that
Wei was tasked with converting HARS HIV/AIDS
files..." It also stated it couldn't access the
documents of the federal court so it treated Wei's
statements as the bald claims (footnote 8, Wei III).
In 2018, Wei filed his third motion to reopen
with the attached the copies of PADOH's
documents and admissions at the federal court, the
Commonwealth Court stated that it held the same
reasons as in Wei III and it disbelieved PADOH
admitted that it never assigned Wei to convert
HARS data Wei IV.
PADOH has distributed that Wei engaged in
disobedience and unsatisfactory work performance
in failing to complete converting HARS data to
block Wei's employment opportunity (AX507).
REASONS FOR GRANTING THE PETITION
I. Wei's constitutional rights and due process
rights were violated in the state proceedings
Wei had raised the issue that his constitutional
rights were violated in his initial appeal to the
Commonwealth Court. However, PADOH denied
18

so and said Wei had no evidence to support his
claims. After Wei acquired the PADOH's
contemporaneous documents uncovered from his
federal case, he appealed to reopen the case.
Unfortunately, the Commonwealth Court erred in
ignoring the material evidence.
This Court held the Public employee had a property interest in the position and determined that
"[t]he point is straightforward: The Due Process
Clause provides that certain substantive rights —
life, liberty, and property — cannot be deprived
except pursuant to constitutionally adequate
procedure ". He (or She) is entitled to the notice of
the charges against him, an explanation of the
employer's evidence, and an opportunity to present
his side of the story Cleveland Board of Education
v. Loudermill 470 U.S. 532 (1985).
PADOH didn't start returning Wei's belongings
with some emails until June, 2009, and it never
retuned Wei's notebooks (AX251). Therefore, he
could not use them at the 2007 hearing. It
infringes Wei's rights of due process guaranteed
by the Fourteenth Amendment. However, even
based on PADOH's own records, it clearly violated
the due process Clause to terminate Wei:
The last meeting that PADOH with Wei was an
Aug.24, 2007 PDC, based on the PADOH's minute:
"Dr. U" [Urdaneta] accused Wei of failing to finish
the task of the Dec. 2006 BIT meeting (App. 131a),
Wei disputed her because the accusation was false.
Then Burnhauser decided to orally suspend Wei to
conduct an investigation.

19

Before dismissing Wei, PADOH communicated
Wei by mailing a letter for an investigation to
formalize the suspension only but the letter didn't
list any facts (App. 144a); It never gave Wei the
opportunity to present his side of the story before
termination, so it violated the Loudermill.
Then, PADOH sent a letter to terminate him
with vague cause of the backlog data though it
clarified as backlog HARS data later. However, the
backlog data included HARS data, pre-HARS data
and HIV lab data and so on, the vague violated the
Pennsylvania law that the just cause must be
unambiguous Lewis v. Civil Service Commission,
518 Pa. 170, 175, 542 A.2d 519, 522 (1988).
PADOH has insisted that the assignment was
converting 2005 backlog HARS data in this case
(App. 130a) Wei [IV Then the state tribunals
believed so. Therefore, all of Wei's defenses must be
futile.
However, in the federal court, PADOH has admitted that it assigned the BIT and others to convert
the HARS data but never assigned Wei to do so
(App. 151a). His job was checking the errors after
they converted HARS data. In addition, if Wei
converted the HARS data or claimed that he
converted HARS data, PADOH had stronger
reason to fire him Wei III. Clearly, it infringes
upon Wei's rights of due process and equal protection guaranteed by the Fourteenth Amendment.
PADOH refused to release the key documents
that Wei subpoenaed. It refused to exchange
evidence with Wei. So, many key documents that
Wei filed in his motion to reopen weren't available
20

for the 2007 Commission hearing.
As a foreign-born neutralized American with
limited English proficiency, Wei was entitled to
have an interpreter for pre-hearing conference
and hearing (App .135a). Nevertheless, the
Commission denied his request to allow an
interpreter (App. 136a). So, Wei's meanings
weren't documented correctly. it violated Wei's
free speech right to express what he wanted under
the U. S. Constitution's first amendment and
prejudiced Wei.
For example, the Commission claimed Wei
agreed that all documents would be concluded by
the end of the hearing day, it struck Wei's
additional evidence (App.150a) for impeaching
and rehearing. However, Wei's understanding
and agreeing was that the day's testimony in the
Commission hearing was concluded.
Furthermore, asking a limited-English layman
this question after about 4-hour hearing with full
adverse testimonies is illogical. Since Wei asked
to force PADOH to release the key documents
during the hearing and the Commission stated
that it would consider the matter later and We
also indicated that PADOH lied under oath, he
certainly waited for PADOH's documents and
tried to find the documents to support his claim
later.
Moreover, the Commonwealth documented "Wei
is Asian and his English is very broken" (AX250).
When Wei wanted to deposit the defendants in the
federal court, the Judge ordered his hiring an
interpreter.
21

However, the Commonwealth Court erred in
agreement with PADOH's argument that the
Commission wasn't a federal court, so it could
disallow an interpreter to Wei because it didn't
require the same standard as that in the federal
court. Wei I.
PADOH made several key falsifications in the
Commission's hearing that neither questioned Wei
nor were in its records before his termination. This
was in violation of Loudermill. For example,
PADOH has insisted that because it didn't receive
his email after Aug 24, 2007 PDC, then it made the
decision to terminate him (App. 137a). PADOH
insisted so in the federal court too until 2016 Wei
identified the same email among its documents
(App. 119a).
Another example: Urdaneta testify she shared a
story in July 3, 2007 PDC: After her receiving Wei's
July 2, 2007 5:23 email she visited Wei's office and
met Wei on the night of July 2, 2007, but Wei could
not show her a sample, then PADOH ordered Wei
to show the data during the PDC. However, neither
the PADOH's PDC minute nor any other records
documented Urdaneta 's visiting story or PADOH's
order, PADOH has admitted that neither Urdaneta
told her story nor PADOH ordered Wei for the data
in the PDC (App. 141a). Indeed, PADOH recorded
that "400,000 were completed" (App. 112a).
Even based on PADOH's new story in the federal
case, Wei's state case must be reopened. If a
deciding official is exposed to information affecting
the outcome without the public employee being
given the opportunity to present a defense against
22

it before the termination, then any opportunity to
respond is fundamentally flawed and fails to meet
the requirements set in Loudermill, see also Stone
v. Federal Deposit Insurance Corporation, 179 F.3d
1368 (Fed. Cir.1999).
Nevertheless, the Commonwealth Court
ignored the important evidence of that Wei's
opportunity to respond was deprived; this
conflicts with the holding of this Court on the due
process issue in Loudermill.
In Loudermill, "the Board's Business Manager
informed Loudermill that he had been dismissed
because of his dishonesty in filling out the
employment application. Loudermill was not
afforded an opportunity to respond to the charge
of dishonesty or to challenge his dismissal". Then
he appealed to the Commission but failed. This
Court held the termination violated the due
process.
In this case, PADOH falsified that Wei failed to
convert the HARS data as its just cause though it
never informed Wei of this cause in any of the
PADOH's meetings. PADOH also has no record of
accusing Wei of doing so. This was in violation of
the laws set by Loudermill.
II. The Commonwealth Court erred in that
PADOH didn't commit the fraud
a. The violation of Whistleblower Law
In the initial proceeding, Wei claimed that
PADOH violated the Whistleblower Law by
suspending his PA-NEDSS password and
dismissing him for impeding his review of the
23

data errors especially the errors of the converting
HARS data.
PADOH argued that this wasn't Wei's business,
PADDOH assigned Wei to convert HARS data at
the Dec. 2006 BIT meeting solely so it could
terminate him for its incomplete conversion. Wei
claimed the meeting task was for the estimate and
Wei completed the task.
Now PADOH has admitted that the Dec. 2006
BIT meeting's assignment was for "an estimated
number" only (AX410) and documented "Estimate
was given by Dr. Wei" (App. 83) at the federal
court.
PADOH's documents show that PADOH tasked
Wei checking the completeness and accuracy of
PA-NEDSS data (including those converted from
HARS data) (App. 51a) and Wei did so weekly (App.
61a) but it never assigned Wei to convert HARS
data.
Urdaneta in 2007 wrote Wei's job was to do
quality control, "his job is to analyze the data and
point-out errors he finds", how to fix these errors
wasn't his duty (App. 54a-55a). She didn't write
that Wei had any duties on converting HARS data
or any data.
Urdaneta defamed Wei for harassing BIT and
criticizing the errors in PA-NEDSS to the local
health departments. This shows that PADOH
terminated Wei for the purpose of blocking his
checking errors. Nevertheless, PADOH admitted
that Wei correctly identified the data errors (App.
68a-69a). Therefore, Wei's actions weren't
harassing but were fulfilling his duty: maintaining
24

data integrity and providing vigilance against the
potential epidemic.
b. PADOH used an unassigned task to be the
removal cause
PADOH banned Wei to do the unassigned task.
PADOH wrote that it would have stronger reason
to terminate Wei if he did an unassigned task
rather than un-finishing an assignment Wei III.
However, it used the task assigned to the others
terminate Wei in this case.
Pennsylvania Section 807 of the Civil Service
Act 71 P.S. § 741.807, provides that no regular
employee in the classified service shall be
removed except for just cause. The appointing
authority bears the burden of proof to show just
cause for the removal of the employee and, in
addition, the substance of the charges underlying
the removal. Long v. Commonwealth, Pennsylvania Liquor Control Board, 112 Pa. Commw. 572,
535 A.2d 1233 (1988).
The Pennsylvania Supreme Court held that the
function of an appellate court in reviewing the
discharge of a civil service employee is to ensure
that just cause for dismissal exists both factually
and legally. In re Baker's Appeal, 409 Pa. 143, 185
A.2d 521 (1962). That is consistent with
Loudermill.
As the initial decision of the Commonwealth
Court restated the PADOH's statement "In Dec
2006, [Urdaneta] assigned Wei the task of
converting the HARS HIV/AIDS data... The task
was solely Wei's responsibility", "Wei was
25

terminated for not completing the HARS
HIV/AIDS assignment by July 31, 2007." But,
"Wei claims that it was not his responsibility to
convert the 2005 HARS HIV/AIDS data files" Wei
I.
However, PADOH has admitted it assigned
the BIT and other staffers rather than Wei to
convert HARS data before the federal court (App.
151a). As PADOH wrote, Wei's duty was
providing quality control after they converted
HARS data; and they rather than Wei had the
duty to fix the errors that he found (App. 51a,
54a-55a). So, PADOH should terminate them
rather than Wei.
Therefore, PADOH betrayed the public's trust of
the government, and created a false cause without
any evidence. It infringes Wei's rights of due
process and equal protection guaranteed by the
Fourteenth Amendment.
Although the Commission, as a part of the
Defendants in the federal case, has known that
PADOH never assigned Wei to convert HARS
data, it failed to correct the material fact in the
Commission's decision (App. D). Therefore, it
violated Wei's rights of due process and equal
protection.
Wei repeatedly indicated that PADOH made the
false statements, the Commonwealth Court chose
to believe PADOH by citing a PADOH's 2017 brief
"Because it is a well-established fact that Wei was
tasked with converting HARS HIV/AIDS files... If
Wei was not given this assignment, and instead
chose to access private HIV/AIDS files without
26

the direction of his supervisors, the Department's
case for just cause becomes even stronger" Wei
III. It also stated it couldn't access the documents
of the federal court (footnote 8, Wei III).
However, when Wei provided a copy of that
PADOH's documents and admissions in his third
motion to reopen, PADOH still claimed Wei was
assigned to convert the HARS data solely in its
2019 response brief (App. 130). The Commonwealth Court stated that "Wei again asserts that
the Department admitted in the federal case that
he was never assigned the task of converting
HARS HIV/AIDS data files, We specifically
rejected this argument in Wei III and we do so
again here for the reasons articulated in Wei III'
Wei IV.
Therefore, this Court should review this case
because only this Court can access the documents
in both the state and federal cases.
c. The law to reopen the case
The Commonwealth Court also erred in siding
with PADOH in that Pennsylvania had no law to
reopen the administrative case and "the appropriate remedy for such was to file a petition for
rehearing" in the Commission after initial
decision.
First, under the Pennsylvania law Section
105.17 of the Rules of the Civil Service Commission, "(e) The procedure for reconsideration
contained in this subsection does not alter or
replace any procedures provided elsewhere for the
timely filing of appeals of Commission adjudica27

tions to appellate courts".
Second, Wei has filed additional documents and
a rehearing petition after the initial hearing to
the Commission but the Commission denied the
reconsideration (App. 44a).
Third, PADOH claimed that the Commission's
decision could be used to issue preclusion before
the federal court and has succeeded in doing so.
Therefore, the Commission's decision must be
allowed to reopen if it had material error. It
should be similar to other tribunals that have the
power to make the judgement. Otherwise, the
unconstitutional situation encourages the party
perjuring or concealing the evidence in the
Commission proceeding.
The Commonwealth Court erred in citing
Shoemaker v. State Employes' Retirement Board,
688 A.2d 751, 753 (Pa. Cmwlth. 1997); Fritz v.
Commonwealth, Department of Transportation,
468 A,2d 538 (Pa.1983) for deciding this case
because the appellants didn't accuse opponents
making the false statements in both cases.
Therefore, their opponents weren't responsible for
the delay action of that the appellants filed
further evidence to vindicate.
Although Pennsylvania has no law to reopen an
administrative case, it has no law to ban to open
the administrative case too. Since PADOH clearly
committed the fraud in this case, it should be
under:
"equitable relief against fraudulent judgments
is not of statutory creation. It is a judicially
devised remedy fashioned to relieve hardships
28

which, from time to time, arise from a hard and
fast adherence to another court-made rule, the
general rule that judgments should not be
disturbed after the term of their entry has
expired. Created to avert the evils of archaic
rigidity, this equitable procedure has always
been characterized by flexibility which enables
it to meet new situations which demand
equitable intervention, and to accord all the
relief necessary to correct the particular
injustices involved in these situations."
Hazel Atlas Glass Co. v. Hartford -Empire a.,
322 U.S. 238, 246 (1944).
"From the beginning there has existed
alongside the term rule a rule of equity to the
effect that under certain circumstances, one of
which is after- discovered fraud, relief will be
granted against judgments regardless of the
term of their entry". Id.
In Atlas Glass, the defendants' lawyer was the
true author of the spurious publication to support
their case. They therefore had a liability for which
the plaintiffs would file further evidence to vindicate later. The plaintiffs brought the issue to the
courts several years later and this Court held the
case should be reopened.
In Wei's case, PADOH and its lawyers have
falsified that converting HARS data was Wei's
duty solely for terminating Wei even in their 2019
brief. Therefore, Wei could ask to reopen after he
have the newly verified evidence, "The public
welfare demands that the agencies of public
justice be not so impotent that they must always
29

be mute arid helpless victims of deception and
fraud" Id.
d. PADOH's other frauds on Court
The lawyers had obligation to follow law 3.3 "A
lawyer shall not knowingly: (1) make a false statement of material fact or law to a tribunal or fail to
correct a false statement of material fact or law
previously made to the tribunal by the lawyer".
However, PADOH's lawyers never corrected but
repeated the false statements in the state case.
If PADOH don't insist the fraud that it
assigned Wei to convert HARS data solely then it
terminated Wei for its incomplete conversion of
HARS data; Wei should be reinstalled in 2008.
PADOH also committed several key frauds to
win the case:
First, PADOH has insisted that it assigned Wei
to convert HARS data during a Dec. 2006 BIT
meeting. Now, PADOH has admitted the meeting
task was "an estimated number" (App. 91a); and
"Estimate was given by Dr Wei" (App. 83a). If
PADOH was telling the truth, it had no reason to
dismiss Wei.
Second, as mentioned above, PADOH falsified
that Wei failed to send his Aug 27 2007 email
about his performance as a key reason to dismiss
him (App. 137a). If PADOH was telling the truth,
the case could have been reversed.
Third. PADOH claimed "Wei was charged with
collecting and reporting HIV/AIDS data
accurately" Wei I. However, it wrote that Wei's
30

duty was reviewing the completeness and accuracy
of the collected data and providing his finding, he
had no duty to collect data or correct error (App.
51a, 54a-55a).
Fourth, PADOH has insisted that other staffers
didn't clean the lab data because Wei hadn't converted the data. However, PADOH has required
that cleaning must be completed before converting in the routine (see App. 146a, reconciling
=cleaning) and in the updated Charter (App. 74a).
If PADOH hadn't refuse to release its updated
Charter, the case should have been reversed.
Fifth, PADOH has admitted that Urdaneta didn't
tell her alleged story of the July 2 2007 night
visiting Wei's offices and PADOH didn't order Wei
to show his data during the July 3, 2007 PDC at the
federal court (App. 141a). In this case, however,
PADOH used the fake story as the material fact.
Sixth, while PADOH has admitted that it
assigned the BIT and other staffers rather than
Wei to convert HARS data in the federal court, it
changed its story to "Wei failed to complete the
assignment given to him of unifying [converting]
into a single format file the backlog of HIV
laboratory data so that it could be evaluated,
cleaned, and uploaded into PA NEDSS with the
rest of the HARS data" (App. 151a).
Although the new claim had no impact on Wei's
Commission case because it informed Wei after
his termination, however, it is false. PADOH in
the updated Charter required "If there is not
enough information to meet the PA-NEDSS
required fields [of BIT format], the data should
31

not be converted" (App. 74a). So, cleaning the
reports as perfect as possible must be done prior
to the conversion. Indeed, once the reports
converted into BIT's draft format (App. 157a), it
could not clean anymore. As PADOH admitted,
the other staffers were in charge of cleaning but
they didn't clean the lab data yet.
PADOH has banned converting HIV lab data
and any other data directly into HARS since Nov.
22, 2005 (App. 62a), only the extract from
PA-NEDSS was allowed to get into HARS, this is
one-way traffic (App. 146a). No 2007 HARS data
was allowed to be converted into PA-NEDSS.
To retaliated against Wei, PADOH in April 9,
2007 suddenly ordered Wei to "set aside 2 hours"
daily (App. 107a) converting the lab data into BIT
draft format. However, checking the accuracy and
completeness of the data in PA-NEDSS including
the converted HARS data still was his major task.
Nevertheless, Wei worked extremely hard and
processed (cleaned and converted) 550,000 reports
(App. 119a). Based on PADOH's records, the HIV
team could process up to 480,000 records yearly
(App. 147a), while the PA-NEDSS team could
process about 330,000 reports annually (App. 58a).
So, Wei's work was exceptional. However, PADOH
falsified that it didn't receive his email of the
performance report and dismissed him to interrupt
the progress.
Indeed, if the data was converted into the fit
format, a million records could be uploaded into the
target database less than an hour. Therefore,
PADOH asked Wei to convert 600,000 reports into
a useless draft format was for both wasting and
32

harassing purpose.
PADOH has admitted that it didn't complete
2005 HIV reports by Sept. 2010 (App. 139a). it
claimed it didn't start the project yet but still
defamed Wei for their failure (App.152a). Indeed,
PADOH required the raw reports was converted
into the upcoming BIT format directly (App. 72a),
any work to converting the data to other formats
was unnecessary or wasting.
Finally, processing all HIV reports as completely
as possible was the major duty of the HIV team and
BIT, not a selection. If Wei wasn't dismissed, he
would push PADOH to fix the incompleteness.
The due process clause of the Fourteenth
amendment provides that no state may "deprive
any person of life, liberty, or property, without
due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws."
U.S. Const. amend. XIV, § 1. In Brady v. Maryland, 373 U.S. 83, 87 (1963),
In this case, PADOH falsified Wei to unfinish
an unassigned task for terminating Wei was a
severe violation of amend. XIV, this was especiallly true that PADOH also wrote that it has
stronger reason to terminate Wei if he did the
unassigned task Wei II/
This Court held "Suppression by the prosecution of evidence favorable to an accused who has
requested it violates due process where the
evidence is material either to guilt or to punishment, irrespective of the good faith or bad faith of
the prosecution "Brady.
"Fraud on the court has been found in cases
33

where a party has perjured him or herself to the
court and the court has relied upon the fabrications when reaching a judgment. See Matter of
Neitlich, 413 Mass. 416, 423 (1992) (fraud on the
court where attorney made the false statement
with intent to deceive court) ..." Commissioner of
Probation v. Adams, 65 Mass. App. Ct. 725, 737
(2006).
Because PADOH's lawyers fraudulently present
facts to the court that interfere with a just and
equitable decision-making process, therefore,
they committed the fraud.
III. The Commonwealth Court erred in that Wei
was able to use PADOH's records in the initial
hearing
The Commonwealth Court erred in agreement
with PADOH's argument that the Department's
business records upon which he now relies were
available to him at the time of the original
proceeding before the Commission, and Wei was
able to use these records in the initial hearing.
However, as Wei wrote in his application for
the reconsideration (App. G), Wei was unable to
present these records to dispute PADOH's
falsifications at the original hearing. Since Aug.
24, 2007, PADOH began suspending Wei for an
investigation, which permanently disallowed him
from accessing his PADOH's office where Wei
stored the documents.
"42. Then, PADOH sent a termination letter
to Wei a week later. However, it didn't start
returning Wei's belongings that contained
34

some key emails and documents until June
2009 through Wei repeatedly requested the
returning".
"44. PADOH in Nov. 2007 filed a Motion to
Quash Subpoena in part and for a Protective
Order in which it not only refused to release the
key documents that Wei subpoenaed but also
claimed Wei wasn't allowed to present these
relevant documents to the hearing (Doc. A,
If 52). PADOH also refused to exchange
evidence with Wei, many key documents that
Wei filed in his motion to reopen could not be
obtained to be presented to the 2007
Commission hearing".
In addition, PADOH had the burden of the
proof, it must present the records rather than only
oral testimony to justify its just cause. The
question should be: why did PADOH conceal these
documents and testify about them to the
opposition.
Even assuming Wei could get the documents
from his friends, that would be futile too. First,
the PADOH's falsifications were not presented to
Wei before the hearing, and Wei wasn't prepared
to dispute them before he heard the accusations.
Second, the hearing was wrapped up in about four
hours on the same day, with no time for Wei to
return home to prepare the documents to dispute
them.
Furthermore, as PADOH and the Commission
admitted, Wei filed the additional documents to
the Commission after the hearing, but PADOH
claimed the documents were unauthentic, so the
35

Commission struck them from the records (App.
150a).
Moreover, as the Commonwealth Court noted,
both sides disagreed on almost all of the facts.
However, the Commission credited the entirety of
PADOH's statements with discrediting Wei's
statements. For example, Wei showed his Aug 27,
2007 email but PADOH and the Commission still
insisted Wei failed to send the email. They
insisted so, even in the federal court, until Wei
identified the email (App. 119a) among their
documents to the federal court.
Indeed, PADOH and the Commission still used
"Defendants are unable to determine the
authenticity of Exhibits" to deny some of the
documents Wei presented at the beginning of the
federal case. However, they admitted these were
then documents after Wei identified them from
the documents that they provided.
For above reasons, these documents certainly
are "new" to this case, and Wei must have the
right to present these documents after PADOH
has admitted and verified them in the federal
court.
However, in the petition for review to the
Commonwealth Court, Wei also listed the key
evidence that Wei was not aware of in the initial
proceeding:
"49. (a) HR Director Kim Strizzi ("Strizzi")'s
August 27, 2007 email [App. 119a]. After
Strizzi and Burnhauser received Wei's August
27, 2007 email for his progress, Strizzi wrote an
36

instruction on the top of Wei's August 27, 2007
email to block his access to all of PADOH's data
to Burnhauser, Ostroff, and Urdaneta.
However, PADOH falsified that it did not
receive Wei's email. It shows that PADOH not
only receive Wei's email but also intentionally
disallowed an opportunity for Wei to present
his side of evidence and story as required in
Cleveland Board of Education v. Loudermill,
470 U.S. 532 (1985).
(b) Giallo's and Obiri's Nov. 3, 2006
emails [App. 76a]. It clearly stated that they
arranged the upcoming Dec. 2006 BIT meeting
to discuss 2006 Project Charter for answering
Wei's questions [why they did not complete the
2005 reports and how they planned to complete
them], rather than anything to order Wei
converting HARS data.
(c) Urdaneta's Dec. 12, 2006 email to
Obiri (AX530). Urdaneta wrote that she would
assign Wei's task [in email] with the follow-up
dates (Also see AX391 for follow-up date). This
was consistent with Wei's statement that
Urdaneta stated to use the email to assign the
task to him. Therefore, the parties could easily
check when and what tasks that Urdaneta
actually assigned to Wei.
(d) Giallo's June 2007 response to
PADOH [App. 81a-97a]. Giallo wrote "Estimate
given by Dr. Wei" [App.83a]. Because Wei
actually provided his estimated number, and
no business record shows that Urdaneta or
Gallio disputed the number to him, therefore
37

Wei must be considered to complete the Dec.
2006 task by default.
53. (e) Stephen Ostroff ("Ostroff')'s July 2,
2007 email [to HR] [App. 111a]. Ostroff [wrote
that] he told Wei that Wei was no longer a part
of the solution for the backlog lab data. Because
Ostroff was Urdaneta's immediate supervisor
and could overrule her instruction, PADOH
couldn't use that Wei failed to process backlog
HIV lab reports to discipline Wei after the day.
Instead, they should fire the staffers that were
a part of the solution. Indeed, PADOH
suspended Wei without pay for a week and
approved his FMLA leave without pay for 6.4
days with total 85 hours in July 2007, Wei
certainly could not extract 40 hours to process
backlog HIV reports but focused on the urgent
current data management in July.
Because Wei was neither a receiver nor was
aware of above documents, these evidences
definitely to be after-discovered evidences that
should be allowed to reopen the case.
Wei also wrote in paragraph 55 "If PADOH still
claims that these documents were available to
Wei at the time of the initial hearing, please show
the evidence of who, when, where, and in which
way to give Wei on or prior to Dec. 3, 2007.",
PADOH didn't respond.
In addition, as PADOH and the Commission
wrote in the federal court, many business records
weren't available to Wei until the discovery of a
federal case [App. 155a, ¶¶89-90].
PADOH has all of the documents but still falsely
38

testified against its records, it made Wei's reason
of its fraud even stronger.
Conclusion
The petition for a writ of certiorari should be
granted.
Respectfully Submitted:

Ming Wei
3910 Silver Brook Dr.
Mechanicsburg, PA 17050
Phone: (717) 732-2040
Email: mingweiebct@hotmail.com
06/19/2020

39

